No.19-1021

IN THE

~upreme ~ourt of tbe Wniteb ~tatef
MICAH JESSOP; BRITTAN ASHJIAN,

Petitioners,
V.

CITY OF FRESNO; ET AL.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Ninth Circuit
MOTION FOR LEAVE TO FILE AND BRIEF OF
AMICUS CURIAE NATIONAL ASSOCIATION OF
CRIMINAL DEFENSE LAWYERS SUPPORTING
PETITIONERS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the brief contains
2,155 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
The motion contained within this publication has 527 words.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 13, 2020.

t

Colin Casey Ho n
Wilson-Epes Printing Co., Inc.

